               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




   Postal Service Mail Volume Reporting

                       Audit Report




                                              March 7, 2012

Report Number FF-AR-12-002
                                                                         March 7, 2012

                                             Postal Service Mail Volume Reporting

                                                        Report Number FF-AR-12-002




IMPACT ON:
U.S. Postal Service mail volume             reconcile the two mail volumes;
reporting for first-handled pieces (FHP)    however, we found that, because of
and Revenue, Pieces, and Weight             current technology limitations, it was not
(RPW).                                      possible to reconcile the two volumes.

WHY THE OIG DID THE AUDIT:                  WHAT THE OIG RECOMMENDED:
Our objective was to determine why          Based on the results, we are not making
there is a difference in mail volumes       any recommendations.
reported through FHP and RPW data.
These two mail volumes have                 WHAT MANAGEMENT SAID:
consistently been different from each       Management agreed with our
other.                                      conclusion and appreciated that the
                                            U.S. Postal Service Office of Inspector
WHAT THE OIG FOUND:                         General (OIG) documented the
Differences in FHP and RPW mail             differences between the two systems
volumes are expected, because the           that record mail volume data.
data are unrelated, collected, and
calculated using different methods, and     AUDITORS’ COMMENT:
used by management for different            The OIG considers management’s
purposes. The Postal Service,               comments responsive to the issues
appropriately, does not reconcile the two   identified in the report.
mail volumes, because the reconciliation
would not serve a business purpose.         Link to review the entire report.
During our audit, we intended to
March 7, 2012

MEMORANDUM FOR:            DAVID E. WILLIAMS
                           VICE PRESIDENT, NETWORK OPERATIONS

                           JOSEPH D. MOELLER
                           MANAGER
                           REGULATORY REPORTING AND COST ANALYSIS




FROM:                      John E. Cihota
                           Deputy Assistant Inspector General
                            for Financial Accountability

SUBJECT:                   Audit Report – Postal Service Mail Volume Reporting
                           (Report Number FF-AR-12-002)

This report presents the results of our audit of the U.S. Postal Service’s mail volume
reporting processes (Project Number 11BG019FF000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachments

cc: Megan J. Brennan
    Joseph Corbett
    Corporate Audit and Response Management
Postal Service Mail Volume Reporting                                                                               FF-AR-12-002



                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 1

First-Handled Pieces Volume Data ................................................................................. 1

Revenue, Pieces, and Weight Volume Data ................................................................... 2

Comparison of First-Handled Piece and Revenue, Pieces, and Weight Data and
     Reconciliation ....................................................................................................... 2

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Collection of First-Handled Piece Data ........................................................................ 4

   Revenue, Pieces, and Weight System......................................................................... 4

   Objective, Scope, and Methodology ............................................................................ 4

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Management’s Comments .......................................................................... 8
Postal Service Mail Volume Reporting                                                                           FF-AR-12-002




Introduction

This report presents the results of our audit of the U.S. Postal Service’s mail volume
reporting (Project Number 11BG019FF000). The objective of our audit was to determine
why there is a difference in mail volumes reported through first-handled piece (FHP)
data and Revenue, Pieces, and Weight (RPW) system data. This self-initiated audit
addresses operational and financial risk. See Appendix A for additional information
about this audit.

The Postal Service captures mail volume through FHP and RPW data. FHP data are
used to evaluate the productivity and workload of each mail processing facility, while
RPW data are used to estimate mail volume for each class of mail to allocate costs and
help develop new rates. In fiscal year (FY) 2011, FHP mail volume equaled 191.3 billion
pieces, while RPW mail volume equaled 167.9 billion pieces.

Conclusion

Differences in FHP and RPW mail volumes are expected, because the data are
unrelated, collected and calculated using different methods, and used by management
for different purposes. The Postal Service, appropriately, does not reconcile the two
mail volumes, because the reconciliation would not serve a business purpose. During
our audit, we intended to reconcile the two mail volumes; however, we found that,
because of current technology limitations, it was not possible to reconcile the two
volumes.

First-Handled Pieces Volume Data

A mailpiece receives an FHP mail volume count, mainly through automation,1 in the
operation where it receives its first single piece distribution2 handling. Each mailpiece
distributed in a facility receives only one FHP count. However, a mailpiece receives an
FHP count at each facility where it receives single piece distribution handling, because
FHP data are used to evaluate the productivity and workload of each facility. Therefore,
a mailpiece can have more than one FHP mail volume count. For example, if a single
piece letter is mailed from Denver, CO, to Baltimore, MD, it will receive an FHP mail
volume count in Denver, CO, when it is sorted and sent to the Baltimore ZIP Code, then
receive an additional FHP mail volume count in Baltimore, MD, when it is sorted to the
destination ZIP Code.

Even though a mailpiece receives an FHP count at each facility where it receives initial
distribution handling, the total FHP mail volume does not differ greatly from RPW mail

1
  Mail processing machines such as delivery barcode sorters, advance facer cancellers, and automated flats sorting
machines provide FHP counts.
2
  A distribution operation is defined as “the sortation of a single/individual piece of mail to an area distribution center,
state, sectional center facility, city, foreign country, official mail, associate office, station, branch, carrier route, box
section, ZIP Code, or other facility.”
                                                                  1
Postal Service Mail Volume Reporting                                                                   FF-AR-12-002



volume at a facility. This is because the majority of mail the Postal Service receives is
presorted to its destination ZIP Code; therefore, the mail does not receive distribution
handling until it arrives at its destination facility.

FHP data are used mainly by headquarters personnel for workload and productivity
indicators such as:

   Benchmarking FHP vs. total pieces handled ratios between facility and national
    levels.

   The Distribution Productivity Index (DPI).3 The Postal Service compares DPI on a
    weekly, monthly, and same period last year basis to evaluate the productivity of their
    mail processing facilities.

Revenue, Pieces, and Weight Volume Data

Eighty percent of RPW mail volume data comes from automated sources such as the
PostalOne!4 and point-of-service systems5 and automated postal centers (APC).6 The
remaining RPW mail volume data comes from the physical counting of mailpieces by an
individual. The Postal Service uses statistical analyses based on manual counts that
record mailpiece7 characteristics into a database. For RPW data to be statistically valid,
each mailpiece must have the same percent chance of being sampled and can only be
counted once.

RPW data are used to calculate the official mail volume and revenue for the Postal
Service. Additionally, RPW data are used to:

   Develop new rates.
   Assist in budget preparation.
   Conduct management studies.
   Support management decisions concerning mail flow.

Comparison of First-Handled Piece and Revenue, Pieces, and Weight Data and
Reconciliation

Because a mailpiece can receive more than one FHP mail volume count, FHP mail
volume is and should always be greater than RPW mail volume. As noted in Table 1,
FHP mail volumes have been greater than RPW mail volumes over the last 3 fiscal
years. Mail volumes for both FHP and RPW decreased at about the same rate from
FYs 2009 to 2010. However, in FY 2011, RPW mail volume decreased, while FHP mail

3
  DPI equals FHP divided by workhours.
4
  A system that provides web-based services for business mailers and business mail acceptance employees. The
PostalOne! system reduces hard copy paperwork.
5
  The electronic system used at retail facilities to record sales and payment transactions.
6
  The APC is a self-service platform designed to perform many transactions currently conducted at the full-service
retail counter.
7
  A single addressed article of mail, usually a letter, flat, post card, or parcel.


                                                          2
Postal Service Mail Volume Reporting                                                               FF-AR-12-002



volume actually increased, resulting in an additional 2-percent difference from the prior
fiscal year difference.8

           Table 1: Comparison of FHP and RPW Mail Volumes – FYs 2009-2011
                                                                  Percentage
             FY                FHP                RPW
                                                                  Difference
            2009            196.7 billion     177.5 billion          10%
            2010            189.5 billion     170.9 billion          10%
            2011            191.3 billion     167.9 billion          12%
Source: FHP data obtained from Enterprise Data Warehouse, and RPW data obtained from Postal Service annual
reports.

The Postal Service does not reconcile FHP mail volume to RPW mail volume, because
it would not serve any business purpose. To reconcile FHP mail volume to RPW mail
volume, we would have to determine the number of mailpieces that received more than
one FHP mail volume count. However, this information is not captured (or necessary) in
FHP automated data.

Management’s Comments

Management agreed with our conclusion and appreciated that the U.S. Postal Service
Office of Inspector General (OIG) documented the differences between the two systems
that record mail volume data.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the issues identified in the
report.




8
    The Postal Service did not provide a reason why FHP mail volume increased while RPW mail volume decreased.


                                                         3
Postal Service Mail Volume Reporting                                                                   FF-AR-12-002




                                 Appendix A: Additional Information

Background

The Postal Service captures mail volume through FHP and RPW data. The Postal
Service tracks mail volume at mail processing facilities by capturing FHP data. FHP
data are used to evaluate the productivity and workload of each mail processing
facility.In addition, the Postal Service uses RPW to estimate mail volume for each class
of mail. These estimates are used to allocate costs to each class of mail and help
develop new rates.

Collection of First-Handled Piece Data

The vast majority of FHP mail volume is calculated automatically by mail processing
machines.9 When a mailpiece is run on a machine, the piece count is stored on the
machine and uploaded at the end of the day to the Management Operating Data
System (MODS). The remaining FHP mail volume results from non-automated sites.
Facility personnel calculate FHP by counting containers and converting that count to
pieces. The number of pieces is then uploaded to MODS.

Revenue, Pieces, and Weight System

There are many inputs into the RPW system, including the Origin-Destination
Information System (ODIS-RPW); the Bulk Mail Revenue, Pieces, and Weight system
(BRPW); and the RPW Adjustment (ARPW) system. The BRPW system provides
estimates of mail volume for bulk mailings that have corresponding postage statements.
The ODIS-RPW system is used to produce component estimates of mail volume for
mail categories where the data are not available from the Postal Service’s revenue
accounting system or from postage statements. The BRPW and ODIS-RPW estimates
are combined with other data in the ARPW to produce RPW reports for mail volume
estimates. These systems have been reviewed in prior OIG audits and the
methodologies for each system presented by Postal Service statistical programs
personnel to the Postal Regulatory Commission (PRC)10 in 2006.

Objective, Scope, and Methodology

The objective of our self-initiated audit was to determine why there is a difference in
mail volumes reported through FHP and RPW data. To accomplish our objective, we
reviewed FHP and RPW volume data for the last 3 fiscal years. We reviewed Postal
Service handbooks and memorandums to determine current policies and procedures.
We conducted observations of mail processing operations at the Denver Processing

9
  Mail processing machines at each facility count the total pieces handled and subtract the number of pieces that had
subsequent handling. The end result is the number of FHPs at that facility.
10
   The PRC is an independent agency that has exercised regulatory oversight over the Postal Service since its
creation by the Postal Reorganization Act of 1970.


                                                          4
Postal Service Mail Volume Reporting                                                            FF-AR-12-002



and Distribution Center (P&DC).11 We interviewed unit personnel and Postal Service
Headquarters’ and area12 management to obtain an understanding of current policies
and procedures and noted their comments, where appropriate.

We conducted this performance audit from September 2011 through March 2012 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on February 7, 2012, and included their
comments where appropriate.

We assessed the reliability of FHP and RPW data by interviewing postal officials
knowledgeable about the data. As noted in the prior audit coverage section of this
report, the OIG has conducted prior audits on the MODS and RPW system used to
collect and compile this data and determined that, generally, internal controls were in
place and effective. See Prior Audit Coverage for additional information. We determined
that the data were sufficiently reliable for the purposes of this report.




11
 This facility was judgmentally selected based on its proximity to OIG offices.
12
 We interviewed personnel at the Denver, CO; Los Angeles, CA; Santa Ana, CA; and Merrifield, VA P&DCs; and the
Western and Pacific areas.


                                                      5
    Postal Service Mail Volume Reporting                                          FF-AR-12-002




    Prior Audit Coverage

                                              Final
                                             Report
   Report Title       Report Number           Date               Report Results
Internal Controls     CRR-MA-08-001        12/14/2007   Overall, ARPW system internal
over the                                                controls were effective and
Revenue, Pieces,                                        included an established control
and Weight                                              environment, identification of
Adjustment                                              risks, functioning control
System                                                  activities, effective
                                                        communication, and adequate
                                                        system monitoring. Management
                                                        agreed with the
                                                        recommendations.
Controls over the     CRR-AR-09-007        9/30/2009    Controls over the BRPW
Bulk Mail                                               estimation process were
Revenue, Pieces,                                        generally adequate. Specifically,
and Weight                                              the program code used for
System                                                  processing BRPW data contain
                                                        adequate edit controls. Revenue
                                                        and Volume Reporting office
                                                        personnel review processing
                                                        logs, take necessary corrective
                                                        action, and back up program
                                                        code and data. Further, they
                                                        evaluate the reliability of
                                                        calculated values by determining
                                                        statistical measures and
                                                        variances. Management agreed
                                                        with the recommendations.
Management            CRR-AR-12-002        12/13/2011   Although the Postal Service has
Operating Data                                          taken steps to improve the
System                                                  overall accuracy of MODS data,
                                                        additional steps are needed to
                                                        provide more accurate mail
                                                        processing and cost avoidance
                                                        estimates. In FY 2010, about
                                                        27 percent of MODS
                                                        observations were zero
                                                        workhour or zero mail volume
                                                        errors. Management agreed with
                                                        the recommendations.



                                                 6
    Postal Service Mail Volume Reporting                                        FF-AR-12-002




Revenue, Pieces,      CRR-AR-12-003        1/27/2012   The Postal Service could
and Weight                                             significantly reduce manual data
Inputs into the                                        collection for RPW estimation by
Cost and                                               modifying existing automated
Revenue                                                processes to collect mailpiece
Analysis Report                                        images for analysis and by
                                                       moving sampling from delivery
                                                       units to supporting processing
                                                       plants. Management agreed
                                                       with the recommendations.




                                                7
Postal Service Mail Volume Reporting                           FF-AR-12-002



                           Appendix B: Management’s Comments




                                           8
Postal Service Mail Volume Reporting       FF-AR-12-002




                                       9
